 A Better Management Information System Is Needed to
  Promote Information Sharing, Effective Planning, and
  Coordination of Afghanistan Reconstruction Activities




                                July 30, 2009




SIGAR Audit-09-3 Management Information Systems
       OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN
                            RECONSTRUCTION


July 30, 2009

The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan


General David Petraeus, USA
Commander, U.S. Central Command


General Stanley A. McChrystal
Commander, U.S. Forces Afghanistan and
  International Security Assistance Forces


Alonzo L. Fulgham
Acting Administrator
U.S. Agency for International Development


General Richard P. Formica
Commanding General,
Combined Security Transition Command – Afghanistan


Colonel Michael McCormick
Commander, Afghanistan Engineering District
U.S. Army Corps of Engineers


This report examines the use of management information systems at key U.S. agencies and commands
to track and report on reconstruction activities in Afghanistan. Several agencies and commands—the
State Department, U.S. Embassy Kabul; the U.S. Agency for International Development; U.S. Central
Command; U.S. Forces –Afghanistan and Combined Security Transition Command – Afghanistan; and the
U.S. Army Corps of Engineers’ Afghanistan Engineer District—serve a key role in the implementation of
U.S.-funded reconstruction, security, and development programs in Afghanistan. Based on SIGAR’s
findings, we concluded that an integrated management information system for all U.S. reconstruction
activities in Afghanistan would provide essential information for decision-makers and stakeholders to
better plan, coordinate, monitor, and report on U.S. activities. We are recommending that the U.S.
civilian agencies and military commands work together toward developing an interagency information
management system for Afghanistan reconstruction.



SIGAR Audit-09-3 Management Information Systems                                                Page i
A summary of our report is on page iii. The audit was conducted by the Office of the Special Inspector
General for Afghanistan Reconstruction under the authority of Public Law 110-181, and the Inspector
General Act of 1978, as amended. When preparing the final report, we considered written comments
from the U.S. Agency for International Development, U.S. Central Command, and the Combined Security
Transition Command - Afghanistan on a draft of this report. Copies of their comments are included in
appendices II-IV of this report. In addition, we also considered informal comments received from the
U.S. Embassy Kabul.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General for Afghanistan Reconstruction




SIGAR Audit-09-3 Management Information Systems                                                Page ii
                                            SIGAR RESULTS

What SIGAR Reviewed
The U.S. Government has appropriated about $38 billion to fund reconstruction and development
activities in Afghanistan since 2001. This report examines the use of management information systems
by U.S. agencies and commands to track and report on reconstruction efforts in Afghanistan and the
extent to which these systems are integrated. We conducted our review from March to June 2009 in
Kabul, Afghanistan where we obtained information from documents and interviews with U.S. officials,
from the Department of State, the U.S. Agency for International Development, and the Department of
Defense. Our work was conducted in accordance with generally accepted government auditing
standards.

What SIGAR Found
Key U.S. agencies and commands in Afghanistan have management information systems for collecting
data on their reconstruction activities, but there is no single management information system that
provides complete and accurate information of all completed, underway, and planned reconstruction
activities. While these U.S. entities indicated they utilize fairly mature and established management
information systems for financial and accounting purposes, the availability and use of management
information systems for project management varied significantly and provided little opportunity for
sharing information without considerable effort. Sharing of reconstruction information between
agencies and commands typically occurs through periodic meetings and manually intensive processes
involving spreadsheets, presentations, and other ad hoc reports. An integrated management
information system that provides a common operating picture of all U.S. reconstruction activities in
Afghanistan would provide essential information for the decision-makers to better plan, coordinate,
monitor, and report on U.S. activities. Without an effective management information system or other
means to provide a complete view of reconstruction efforts undertaken by the various U.S. entities
operating in Afghanistan, there is an increased chance of duplication of efforts, conflicting ventures, and
overall wasted resources. Senior representatives from the key agencies and commands we met with
agreed that there would be a benefit in having visibility into the projects undertaken by other entities.
In June 2009, at the direction of the National Security Council’s Deputies Committee, the U.S. Agency for
International Development completed a study assessing the feasibility of a joint information
management system for reconstruction activities. A more formal, fully-coordinated effort among key
U.S. Government implementing entities is now needed to jointly assess current information systems and
develop the requirements for an integrated management information solution.

What SIGAR Recommends
To provide a complete view of U.S. reconstruction efforts in Afghanistan, SIGAR recommends that U.S.
civilian agencies and military commands work together toward developing an integrated management
information system, or comparable integrated information solution, for Afghanistan reconstruction
activities that provides a common operating picture of reconstruction programs and projects. The U.S.
Agency for International Development, U.S. Central Command, and the Combined Security Transition
Command-Afghanistan generally concurred with the report’s recommendations. They also cautioned
that the development of an integrated management information system would be a challenging effort,
raising various issues that should be discussed and considered in the implementation of these
recommendations. Similar comments regarding the recommendations and challenges were expressed
by the U.S. Coordinating Director for Development and Economic Assistance at the U.S. Embassy Kabul.

SIGAR Audit-09-3 Management Information Systems                                                    Page iii
TABLE OF CONTENTS

Objectives and Scope                                                                       1

Background                                                                                 1

U.S. Management Information Systems for Afghanistan Reconstruction                         3
are Not Integrated Across U.S. Agencies and Commands

Conclusions                                                                                7

Recommendations                                                                            7

Comments                                                                                   8

Appendix I: Scope and Methodology                                                          9

Appendix II: Comments from the U.S. Agency for International Development                  10

Appendix III: Comments from the U.S. Central Command                                      12

Appendix IV: Comments from the Combined Security Transition Command – Afghanistan         15




Abbreviations
CSTC-A                        Combined Security Transition Command–Afghanistan
ICMAG                         Integrated Civil-Military Action Group
ISAF                          International Security Assistance Force
SIGAR                         Special Inspector General for Afghanistan Reconstruction
USAID                         U.S. Agency for International Development
USFOR-A                       U.S. Forces–Afghanistan




SIGAR Audit-09-3 Management Information Systems                                          Page iv
            A Better Management Information System Is Needed to
       Promote Information Sharing, Effective Planning, and Coordination of
                     Afghanistan Reconstruction Activities
OBJECTIVES AND SCOPE

This report examines the use of management information systems by key U.S. agencies and commands
to track and report on reconstruction activities in Afghanistan and the extent to which these systems are
integrated. We obtained information from documents and interviews with key U.S. Government
agencies and commands responsible for reconstruction and development efforts in Afghanistan,
including the Department of State and the U.S. Agency for International Development at the U.S.
Embassy Kabul; U.S. Forces-Afghanistan and its subordinate commands, the Combined Security
Transition Command-Afghanistan and the Combined Joint Task Force-101; and the U.S. Army Corps of
Engineers’ Afghanistan Engineer District. 1 Specifically, we reviewed the management information
systems used by each of these entities to collect and track information and to report on their
reconstruction efforts. We did not evaluate the accuracy or completeness of data in those systems. We
conducted work in Kabul, Afghanistan, from March to July 2009. We conducted this performance audit
in accordance with generally accepted government auditing standards.


BACKGROUND

Since 2001, the United States has appropriated about $38 billion in support of reconstruction efforts in
Afghanistan. 2 In addition, the international community has pledged $25 billion in support of
reconstruction efforts. Recent statements by leadership of the U.S. Government and the governments
of its international partners have indicated plans to increase the level of financial and military support
for Afghanistan over the coming years. Providing the strategic framework for the on-going efforts in
Afghanistan are the Afghanistan National Development Strategy and the new U.S. Government strategy
for Afghanistan and Pakistan. Both strategies demand robust oversight for the entire reconstruction
program.

To execute these strategies, a complex coalition of international support is involved in bringing
assistance and aid to the people of Afghanistan and the Government of the Islamic Republic of
Afghanistan. The International Security Assistance Force (ISAF), a North Atlantic Treaty Organization-led
coalition of 42 contributing countries, operates under the authority of the United Nations Security
Council. ISAF is organized into five Regional Commands, which include the 26 provincial reconstruction
teams responsible for reconstruction activities at the provincial level. In addition to the international
support coordinated by ISAF, a number of U.S. agencies and commands play a key role in the
implementation of U.S.-funded reconstruction activities in Afghanistan.



1                   nd                                                                                    st
 In June 2009, the 82 Airborne Division assumed command of the Combined Joint Task Force from the 101
Airborne Division.
2
 This amount includes funds appropriated in the 2009 Supplemental Appropriations for Iraq, Afghanistan, Pakistan,
and Pandemic Flu (P.L. 111-32).


SIGAR Audit-09-3 Management Information Systems                                                          Page 1
The U.S. Embassy in Kabul is the principal authority for all Department of State and other U.S. agency
activities in Afghanistan. The U.S. Agency for International Development (USAID) is the key agency for
implementing many of the reconstruction and development efforts in Afghanistan. In addition, the U.S.
Army Corps of Engineers’ Afghanistan Engineer District provides engineering support to reconstruction
efforts for the Departments of Defense and State, and for USAID.

In October 2008, the U.S. Central Command established U.S. Forces–Afghanistan (USFOR-A) to
consolidate U.S. military forces operating in Afghanistan under one unified command. USFOR-A and its
sub-commands—the Combined Joint Task Force-Afghanistan and the Combined Security Transition
Command-Afghanistan (CSTC-A) —provide support to ISAF. The Combined Joint Task Force 101 is the
command authority responsible for the 12 U.S.-led provincial reconstruction teams in Afghanistan.
CSTC-A is responsible for managing the training and equipment programs for the Afghan National
Security Force. In addition, training support for the Afghan National Police is provided, in coordination
with CSTC-A, by the Department of State’s International Narcotics and Law Enforcement Affairs Bureau.



U.S. MANAGEMENT INFORMATION SYSTEMS FOR AFGHANISTAN RECONSTRUCTION ARE NOT
INTEGRATED ACROSS U.S. AGENCIES AND COMMANDS

Accurate and timely information helps decision-makers to plan, coordinate, monitor, and report on
activities and, if necessary, take appropriate corrective actions. While the key agencies and commands
indicate that they utilize fairly mature and well-established management information systems for
financial and accounting purposes, the availability and use of these systems for project management
varied significantly and provided little opportunity for sharing information without considerable effort.
Information shared between U.S. agencies and commands conducting reconstruction activities is
typically done using periodic meetings and manually intensive processes that include spreadsheets,
presentations, and other ad hoc reports. An integrated management information system that provides
a common operating picture of reconstruction efforts by all entities in Afghanistan would provide useful
information to decision-makers so that they can better plan and coordinate the total effort. 3 Currently
there is no single management information system available to provide a common operating picture
across all reconstruction agencies and commands of past, present, and future reconstruction efforts. As
a result, without an effective management information system or other means to provide a cross-
organizational view of reconstruction efforts undertaken by the various agencies and commands
operating in Afghanistan, there is an increased chance of duplication of efforts, conflicting ventures, and
overall wasted resources. Senior representatives from key U.S. agencies and commands told us that
there would be a benefit in having more visibility into the reconstruction activities undertaken by other
U.S. entities in Afghanistan. In June 2009, at the direction of the National Security Councils Deputies
Committee, USAID completed a study that assessed available opportunities to create a joint system for
information sharing of Afghanistan reconstruction activities.

Multiple Management Information Systems Used in U.S. Reconstruction Efforts
Generally, there are two types of information systems used to track and report on reconstruction
efforts: financial data systems and project tracking systems. Table 1 provides a summary of the most
prominent management information systems used by five key U.S. agencies and commands, or sub-

3
 We use the term “common operating picture” to refer to the entire Afghanistan reconstruction program across all
U.S. agencies and commands to include their past, present, and planned future projects and programs.

SIGAR Audit-09-3 Management Information Systems                                                         Page 2
commands, responsible for reconstruction activities in Afghanistan. According to U.S. government
officials, none of the financial or project information managed by the reconstruction entities listed in the
table below is shared directly with any of the other entities in a systematic way. Further, the systems
listed in table 1 are of varying complexity and capability and therefore present an added challenge for
any information solution that would integrate financial and project tracking data.

Table 1: Management Information Systems Used by U.S. Government Agencies and Commands for
Reconstruction Activities in Afghanistan

U.S. Agency or Command                  Financial Data Systems             Project Tracking Systems

U.S. Agency for International           Worldwide Financial Management     GeoBase
Development                             System
                                                                           Infrastructure Project Management
                                        Ariba Acquisition Management       and Reporting Database
                                        Systems
                                                                           Spreadsheets

Department of State,                    Resource Management Tool           Spreadsheets
Bureau of International Narcotics and
Law Enforcement Affairs                 Standard Financial System          Presentation slides

U.S. Forces - Afghanistan               Navigator                          Combined Information Data
   and Combined Joint Task Force                                           Network Exchange
                                        Standard Financial System

Combined Security Transition            Navigator                          Spreadsheets
Command – Afghanistan
                                        Standard Financial System          Presentation slides

U.S. Army Corps of Engineers’           Corps of Engineers Financial       Resident Management System
Afghanistan Engineer District           Management System
                                                                           Promise (P2) application system

                                                                           Primavera

Source: USAID, Department of State, USFOR-A, CSTC-A, U.S. Army Corps of Engineers’ Afghanistan Engineer
District.

The financial data systems used to manage financial information on reconstruction projects and
activities in Afghanistan vary by agency or command from fairly mature and well established systems to
locally collected and consolidated systems. For example, the financial data systems used by USAID,
USFOR-A and its sub-commands, and the U.S. Army Corps of Engineers’ Afghanistan Engineer District,
are integrated throughout their respective departments, allowing for centralized fiscal and budgetary
tracking and reporting processes with data input coordinated between the authorized field units up
through the higher agency or command levels. In another example, financial data for reconstruction
activities under the Combined Joint Task Force-101 are collected and input into the system at the
provincial reconstruction team level using a local resource management tool and then subsequently
rolled up and included in the Standard Financial System of the Department of Defense.

The project tracking systems we reviewed in Afghanistan were generally structured to meet the
immediate local requirements rather than a department-level requirement for program information.

SIGAR Audit-09-3 Management Information Systems                                                           Page 3
These systems varied from integrated organizational systems 4 to independently managed databases, to
spreadsheets and presentation slides. For example, the U.S. Army Corps of Engineers’ Afghanistan
Engineer District uses an integrated organizational system. According to officials from the Afghanistan
Engineer District, their project tracking system interfaces with their financial management system,
allowing for accounting and project data to be shared and verified between the two systems. This
interface between the two systems minimizes the risk associated with entering data multiple times and
potentially introducing data integrity and accuracy errors. The integration of the financial and project
information allows decision-makers at the U.S. Army Corps of Engineers and its Afghanistan Engineer
District to obtain timely and complete information, allowing them to assess project progress and, when
necessary, implement corrective actions, according to these officials.

USAID officials stated that they have developed some independent databases such as GeoBase and the
Infrastructure Project Management and Reporting Database for project tracking. However, neither
database links directly to other data sources. Project data is collected and recorded at the field level
using a local data collection tool, such as a spreadsheet. This data is often manually rolled up and/or
merged with other agency data and sometimes included in one of the independent databases. As this
data is passed from one source to the next, there is a risk that the integrity of the data could be
compromised. USAID officials acknowledged the potential risk of introducing data integrity and
accuracy errors. In addition, these officials stated that USAID has an effort underway to develop a new
management information system intended to better integrate financial and project data and minimize
the manual manipulation of the data once recorded.

Management Information Systems Lack Integration Across U.S. Agencies and Commands

To effectively plan, coordinate, monitor, and report on U.S. reconstruction and development activities in
Afghanistan, agencies and commands need a system for sharing and integrating information from
existing systems with varying complexity, and this needs to be done in a consistent and timely way. The
officials we met with from the key reconstruction agencies and commands indicated they did not have a
management information system in place that provides a common operating picture across all U.S.
Government activities. Senior U.S. Government officials we interviewed expressed an interest in having
access to a management information system that could provide a common operating picture. They
cited numerous benefits such a system could provide. These include:

    •   enhancing unity of effort,

    •   minimizing duplication of effort,

    •   identifying areas saturated with a particular form of assistance and others that have not
        received adequate attention,

    •   providing better coordination and oversight capability,

    •   providing a comprehensive historical record to mitigate the effects of personnel and unit
        rotations, and

    •   providing the capability for more thorough data analysis of efforts.

4
An integrated organizational system is one that directly links data from multiple information systems.

SIGAR Audit-09-3 Management Information Systems                                                          Page 4
In addition, U.S. officials we interviewed noted that time provided to support a new management
information system would be offset by the value added of such a system and time saved in no longer
having to manually generate reports or acquire external data from other commands. However, these
officials also expressed concern that data for a new system should have a focused purpose and not be
collected just for the sake of collecting data. The U.S. Embassy in Kabul established the Integrated Civil-
Military Action Group (ICMAG) in November 2008 with the intention that this group would better align
actions of U.S. Government civilian and military agencies in support of an integrated counter-insurgency
strategy. 5 Representatives from the ICMAG stated that having a management information system that
provides a common operating picture across all U.S. Government reconstruction agencies and
commands would be a valuable tool.

USAID has taken some steps towards the development of an integrated management information
system. According to USAID officials, in late 2008, the National Security Council’s Deputies Committee
identified a need for a development tracking database in Afghanistan. In January 2009, USAID provided
an initial report and recommended further study to assess the feasibility of a Joint Management
Information System, which was approved by the National Security Council’s Deputies Committee. USAID
awarded a contract for the assessment and the contractor conducted the assessment from February to
April 2009. 6 The contractor delivered the final report on the results to USAID in June 2009. 7 The
assessment included recommendations for a development strategy, design requirements, and change
management control that could be used as a basis for a broader coordinated effort to develop a robust
system to share information on reconstruction efforts in Afghanistan.

While this assessment was a good step toward developing an integrated management information
system, SIGAR noted, in discussions with USAID, several potential weaknesses in the study. For
example, the assessment excluded CSTC-A and U.S. Army Corps of Engineers’ Afghanistan Engineer
District in the feasibility assessment, although the two entities together are responsible for over $20
billion in reconstruction activities. Furthermore, the assessment proposed reliance on the ICMAG for
unified data management and control responsibilities, although discussions SIGAR had with ICMAG
officials indicated they did not have the technical expertise to do this. In addition, the assessment
proposed the establishment of a Unified Change Control Management Board to review or approve any
change recommendation for the joint management information system, but did not suggest
membership or participation in the Board by CSTC-A or U.S. Army Corp of Engineers’ Afghanistan
Engineer District. In June 2009, USAID officials stated that any future actions regarding the development
or establishment of a Joint Management Information System were pending discussion with the U.S.
Ambassador to Afghanistan.

Further efforts to develop a system to provide a common operating picture should consider lessons
learned government-wide and in Iraq. The U.S. Congress and Office of Management and Budget have



5
 The Executive Working Group is comprised of the Deputy Chief of Mission, USFOR-A Deputy Commanding
General, USFOR-A Military Advisor to the Ambassador, USAID Mission Director, Regional Command East Deputy
Commanding General for Support, CSTC-A Deputy Commanding General for Programs, and Regional Command
South Deputy Commanding General for Stability.
6
    USAID awarded the contract task order to the contractor using an existing contract.
7
    Joint Management Information System Assessment Final Report, June 2009.

SIGAR Audit-09-3 Management Information Systems                                                      Page 5
identified the importance of information technology management controls for U.S. agencies. 8
Specifically, the Office of Management and Budget has issued guidance on integrated information
technology modernization planning. While the overall information technology guidance does not
specifically address multi-agency contingency operations such as those in Afghanistan or Iraq, legislative
and executive action indicate the importance of utilizing basic principles for promoting better efficiency,
effectiveness, and oversight in multi-agency operations.

In November 2003, the U.S. Congress passed P.L. 108-106, the Emergency Supplemental Appropriations
Act for Defense and for the Reconstruction of Iraq and Afghanistan. The Act established reporting and
monitoring requirements on the implementing agencies in Iraq and appropriated $50 million to fund a
solution for meeting these requirements in Iraq, which led to the development of the Iraq
Reconstruction Management System. In Afghanistan, the National Security Council’s Deputies
Committee identified the need for a common development tracking database which led to the USAID
joint management information system assessment report. Additionally, U.S. Government officials we
met with in Afghanistan acknowledged the benefits of an integrated management information system.

In Iraq, the Special Inspector General for Iraq Reconstruction has reviewed the management information
systems used by U.S. agencies in Iraq and identified several issues that needed to be considered in a
revision of the Iraq Reconstruction Management System. 9 These issues included:

    •   Organizational Accountability: Executive level leadership is necessary to provide long-term
        leadership and strategic guidance, resources management, and, issue resolution of coordinating
        working group.

    •   Data Quality: System designs must ensure data integrity, consistency, accuracy, and
        completeness. Designs should be scalable and flexible to allow for emerging requirements.

    •   Funding and Other Resource Responsibility: Identifying funding and resource requirements and
        sources for developing, operation and support, and maintaining the system are necessary for
        budgetary planning.

    •   Transferring Information to the Host Government: If data is to be transferred to the host
        government, design considerations should be made regarding what data will be transferred and
        how it will be delivered. A formal agreement defining the expected format of the data and the
        transfer process should be made with the host government and reviewed periodically.




8
 40 U.S.C. 11311-11313 and see OMB, Management of Federal Information Resources, Circular A-130 (Washington,
D.C., Nov. 28, 2000).
9
 SIGIR has issued four reports on the management of information for reconstruction programs and activities in
Iraq: Issues Related to the Use of the $50 Million Appropriation to Support the Management and Reporting of the
Iraq Relief and Reconstruction Fund (SIGIR-05-026, January 2006); Management of Iraq Relief and Reconstruction
Fund Program: The Evolution of the Iraq Reconstruction Management System (SIGIR-06-001, April 2006); Review of
Data Entry and General Controls in the Collecting and Reporting of the Iraq Relief and Reconstruction Fund (SIGIR-
06-003, April 28, 2006); and, Comprehensive Plan Needed to Guide the Future of the Iraq Reconstruction
Management System (SIGIR-08-021, July 2008).

SIGAR Audit-09-3 Management Information Systems                                                            Page 6
CONCLUSIONS

The U.S. Government along with its international partners has made large investments in the
reconstruction and development of Afghanistan over the last eight years and the number of civilian and
military stakeholders involved requires significant coordinating efforts. Funding and personnel support
is likely to increase in the near term, resulting in additional reconstruction and development projects for
Afghanistan. However, U.S. Government leadership and stakeholders do not share a common
management information system to plan, coordinate, monitor, and report on reconstruction activities in
an accurate, timely, and integrated way. The U.S. Government needs to develop an appropriate means
to share integrated information in a timely manner across all U.S. Government stakeholders and
decision-makers to effectively manage the assistance provided to the Government and people of
Afghanistan. An integrated management information system, or comparable integrated information
solution, for all U.S. Government implementing agencies and commands in Afghanistan, would provide
essential information to decision-makers to assist in their planning and coordination of activities
supporting the U.S. strategy for Afghanistan. Any solution for the integration of reconstruction
information must account for the different methodologies for collecting data by the various agencies
and commands. Senior officials from the key U.S. agencies and commands responsible for
reconstruction agreed that having a system that generates a common operating picture would enhance
their initiatives and provide additional benefits of accountability and transparency for project funds.
USAID has taken the first steps towards the development of an integrated management information
system. Additional effort, coordinated among key U.S. Government reconstruction implementers, is
now needed to jointly assess current information systems and develop the requirements for an
integrated management information system or comparable integrated information solution.



RECOMMENDATIONS

The development of an integrated management information system will require the participation and
coordination of multiple agencies and commands. Therefore, we are addressing the three
recommendations below to each of the key agencies and commands, so that they, together, will commit
to developing an integrated information solution.

    •   To provide a common operating picture of U.S. reconstruction programs and projects in
        Afghanistan, SIGAR recommends that the Secretary of State, Secretary of Defense, and the
        Acting Administrator of the U.S. Agency for International Development (in coordination with the
        U.S. Ambassador to Afghanistan and the Commanding General, U.S. Central Command) work
        together to jointly develop an integrated management information system, or comparable
        integrated information solution, for Afghanistan reconstruction activities.

    •   SIGAR also recommends that the reconstruction stakeholders appoint an executive agent to
        coordinate the overall interagency development and implementation of an integrated
        management information system or comparable integrated information solution, including
        responsibilities for progress and issue resolution.

    •   SIGAR recommends that the executive agent, once appointed, should work with stakeholder
        entities to, at a minimum, determine interagency requirements for an integrated management
        information system or comparable integrated information solution that takes into account the

SIGAR Audit-09-3 Management Information Systems                                                     Page 7
        various systems and methods currently used to collect reconstruction data; develop a plan to
        ensure that data integrity, consistency, accuracy, and completeness are taken into consideration
        in any system development; and identify funding and resource requirements to implement the
        development and sustainment of the system.



COMMENTS

USAID, U.S. Central Command, and CSTC-A provided written comments on a draft of this report, which
are included in appendixes II-IV. We also received comments from the State Department that stated
that the Coordinating Director for Development and Economic Assistance at the U.S. Embassy Kabul
concurred that the development of an integrated management information system is a laudable
objective, but that it would be difficult to realize. USAID also provided technical comments which we
incorporated in this report, as appropriate.

USAID, U.S. Central Command, and CSTC-A generally concurred with the report’s recommendations.
USAID stated that an integrated management information system is needed, but it would be time-
consuming to establish such a system considering the constraints of the operating environment. USAID
discussed steps taken to meet specific information requirements and standards and said it will continue
to work with other agencies to determine what system or systems would best enable the sharing of
information for decision-making. U.S. Central Command partially concurred with our recommendations
and suggested the consideration of existing systems or systems under development as a possible
solution. The Command also suggested that sharing reconstruction data with non-governmental
organizations working in Afghanistan would provide transparency to the international community and
reduce duplication of efforts. In addition, U.S. Central Command stated that the term “common
operating picture” is used to refer to a specific program and therefore suggested alternative wording.
We have noted in this report that we are using the term common operating picture to refer to the entire
Afghanistan reconstruction program across all U.S. agencies and commands to include their past,
present, and planned future projects and programs. CSTC-A concurred with our recommendations and
stated that it will support their implementation. CSTC-A also suggested that U.S. Central Command
serve as the executive agent to implement policies that will address the findings and recommendations
identified in the report.

We acknowledge that the development of an integrated information management system, or
comparable integrated information solution, for all U.S. agencies and commands in Afghanistan presents
challenges and will need to account for the different methodologies used for collecting data by the
various agencies and commands. However, we believe that an integrated information solution is
essential to providing information in a timely manner to all U.S. Government stakeholders and decision-
makers to effectively manage the assistance provided to the Government and people of Afghanistan;
enhance their initiatives; and provide additional benefits of accountability and transparency for project
funds.




SIGAR Audit-09-3 Management Information Systems                                                   Page 8
Appendix I: Scope and Methodology

We examined management information systems and how they are used by U.S. government agencies
and commands to plan, execute, monitor, and report on reconstruction in Afghanistan and the extent to
which these systems are integrated to provide a complete operating picture of reconstruction activities.

During our audit we met with key U.S. Government agencies and commands conducting reconstruction
and development efforts in Afghanistan. We reviewed and discussed the various management
information systems—financial and project—used to track and report on reconstruction activities and
projects. We did not evaluate the accuracy or completeness of those management information systems.

We conducted our audit from March to July 2009, in Kabul, Afghanistan. We conducted our work at the
U.S. Embassy, the U.S. Agency for International Development, U.S. Forces–Afghanistan and its sub-
commands, the Combined Security Transition Command–Afghanistan and the Combined Joint Task
Force 101, and the U.S. Army Corps of Engineers’ Afghanistan Engineer District where we reviewed
documents and interviewed officials responsible for operations, management, and reporting of
reconstruction information. We also interviewed officials at the International Security Assistance Force
to discuss their collection, management, and reporting of reconstruction information.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. The audit was conducted by the Office of the Special Inspector General for
Afghanistan Reconstruction under the authority of Public Law 110-181, and the Inspector General Act of
1978, as amended.




SIGAR Audit-09-3 Management Information Systems                                                  Page 9
Appendix II: Comments the U.S. Agency for International Development




SIGAR Audit-09-3 Management Information Systems                       Page 10
SIGAR Audit-09-3 Management Information Systems   Page 11
Appendix III: Comments from the U.S. Central Command




SIGAR Audit-09-3 Management Information Systems        Page 12
SIGAR Audit-09-3 Management Information Systems   Page 13
SIGAR Audit-09-3 Management Information Systems   Page 14
Appendix IV: Comments from the Combined Security Transition Command – Afghanistan




SIGAR Audit-09-3 Management Information Systems                               Page 15
(This report was conducted under the audit project code SIGAR-001A)



SIGAR Audit-09-3 Management Information Systems                       Page 16
_________________________________________________________________________________
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction is to enhance oversight of programs for the
                              reconstruction of Afghanistan by conducting independent and
                              objective audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction strategy
                                      and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR         To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies           SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                  reports, testimonies, and correspondence on its Web site.


To Report Fraud, Waste, and       To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan              allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs           reprisal contact SIGAR’s hotline:

                                      •   Web: www.sigar.mil/fraud
                                      •   Email: hotline@sigar.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan 318-237-2575
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-604-0983



Public Affairs                    Public Affairs Officer
                                     • Phone: 703-602-8742
                                     • Email: PublicAffairs@sigar.mil
                                     • Mail: SIGAR Public Affairs
                                         400 Army Navy Drive
                                         Arlington, VA 22202
